<html>
<title> - THE IMPACTS OF FEDERAL FISHERIES MANAGEMENT ON SMALL BUSINESSES</title>
<body><pre>[Senate Hearing 114-604]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 114-604
 
    THE IMPACTS OF FEDERAL FISHERIES MANAGEMENT ON SMALL BUSINESSES

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON SMALL BUSINESS
                          AND ENTREPRENEURSHIP
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 3, 2016

                               __________

    Printed for the Committee on Small Business and Entrepreneurship
    
    
    
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    


         Available via the World Wide Web: http://www.fdsys.gov
         
         
         
         
                              ________

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 24-388 PDF                 WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001   

         
         
         
         
         
         
            COMMITTEE ON SMALL BUSINESS AND ENTREPRENEURSHIP

                    ONE HUNDRED FOURTEENTH CONGRESS

                              ----------                              
                   DAVID VITTER, Louisiana, Chairman
             JEANNE SHAHEEN, New Hampshire, Ranking Member
JAMES E. RISCH, Idaho                MARIA CANTWELL, Washington
MARCO RUBIO, Florida                 BENJAMIN L. CARDIN, Maryland
RAND PAUL, Kentucky                  HEIDI HEITKAMP, North Dakota
TIM SCOTT, South Carolina            EDWARD J. MARKEY, Massachusetts
DEB FISCHER, Nebraska                CORY A. BOOKER, New Jersey
CORY GARDNER, Colorado               CHRISTOPHER A. COONS, Delaware
JONI ERNST, Iowa                     MAZIE K. HIRONO, Hawaii
KELLY AYOTTE, New Hampshire          GARY C. PETERS, Michigan
MICHAEL B. ENZI, Wyoming
                  Zak Baig, Republican Staff Director
               Robert Diznoff, Democratic Staff Director
               
               
                            C O N T E N T S

                              ----------                              

                           Opening Statements

                                                                   Page

Shaheen, Hon. Jeanne, a U.S. Senator from New Hampshire..........     1
Vitter, Hon. David, Chairman, and a U.S. Senator from Louisiana..     2
Ayotte, Hon. Kelly, a U.S. Senator from New Hampshire............    49
Graves, Hon. Garret, a U.S. Representative from the State of 
  Louisiana......................................................    51

                               Witnesses

Anderson, Pam, Operations Manager, Capt. Anderson's Marina, 
  Panama City Beach, FL..........................................    63
Andry, Hughes, Regional Manager, Sportco Marketing, Richmond, TX.    72
Gentner, Brad, President, Gentner Group Consulting, LLC., Tucson, 
  AZ.............................................................    76
Hayward, James, President, XI Northeast Fisheries Sector, Inc., 
  Portsmouth, NH.................................................    81
Wiersma, Joshua, Manager, Northeast Fisheries, Environmental 
  Defense Fund, Boston, MA.......................................    88

          Alphabetical Listing and Appendix Material Submitted

Anderson, Pam
    Testimony....................................................    63
    Prepared statement...........................................    65
    Addendum 1...................................................   120
    Addendum 2...................................................   122
Andry, Hughes
    Testimony....................................................    72
    Prepared statement...........................................    74
Ayotte, Hon. Kelly
    Opening statement............................................    49
Gentner, Brad
    Testimony....................................................    76
    Prepared statement...........................................    78
Graves, Hon. Garret
    Opening statement............................................    51
    Article titled ``Kingpins of the Gulf make millions off red 
      snapper harvest without ever going fishing''...............    54
    Blog Post titled ``All Men Are Equal Before Fish''...........   109
Green, Jim
    Article titled ``Red Snapper Management: The Irony of 
      Protection and Threats from Washington D.C.''..............   119
Gulf Small Businesses
    Letter to Chairman Vitter and Ranking Member Shaheen Dated 
      March 2, 2016..............................................   114
Hayward, James
    Testimony....................................................    81
    Prepared statement...........................................    83
Kenyon, Brad
    Article titled ``Don't Mess with Success in Fisheries 
      Management''...............................................   112
Markey, Hon. Edward J............................................
    Statement for the Record.....................................   108
Shaheen, Hon. Jeanne
    Testimony....................................................     1
Vitter, Hon. David
    Opening statement............................................     2
    Report titled ``Recreational Fisheries Management''..........     4
Wiersma, Joshua
    Testimony....................................................    88
    Prepared statement...........................................    90


    THE IMPACTS OF FEDERAL FISHERIES MANAGEMENT ON SMALL BUSINESSES

                              ----------                              


                        THURSDAY, MARCH 3, 2016

                      United States Senate,
                        Committee on Small Business
                                      and Entrepreneurship,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:01 a.m., in 
Room 428A, Russell Senate Office Building, Hon. David Vitter, 
Chairman of the Committee, presiding.
    Present: Senators Vitter, Fischer, Ayotte, and Shaheen.
    Chairman Vitter. Good morning, everybody. Welcome to this 
very important hearing.
    Because of multiple demands on the Ranking Member's 
schedule in terms of hearings, I am going to turn to her first 
and then I will have my opening statement and we will proceed 
with our witnesses.

OPENING STATEMENT OF HON. JEANNE SHAHEEN, RANKING MEMBER, AND A 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Shaheen. Thank you very much, Mr. Chairman. I 
really appreciate your willingness to let me go first this 
morning, as I try and be in five places at the same time.
    And, I want to apologize to Congressman Graves for missing 
his testimony. I am going to speak, try and get to another 
hearing, and then come back for the second panel.
    I know that there are a number of issues that are facing 
the constituents of Senator Vitter in Louisiana and I look 
forward to hearing more about those concerns. But, I want to 
take just a minute as I start to address some of the issues 
that are facing the fishing industry in New Hampshire and New 
England, and I am pleased that my colleague, Senator Ayotte, is 
here, who also knows very well those issues.
    We are in the midst of a real crisis that has decimated the 
fishing industry in New England, particularly the small 
fisherman. Over the past few years, the federal government has 
required drastic cuts to fishing quotas for the Gulf of Maine 
cod, and current quotas are now a tiny fraction--about five 
percent--of what they were just a few years ago.
    Cod is an absolutely critical resource in New Hampshire for 
fishermen and really across New England. In my State of New 
Hampshire, our fishermen typically have smaller boats. They 
fish closer to the shores. And their prime resource is cod. 
Now, because New England is managed as a multi-species fishery, 
the tight limit on cod really affects our fishing ability to 
fish for other species, as well.
    So, these cuts have been disastrous. Revenues have 
plummeted and many fishermen have been forced out of business. 
The New Hampshire fishing fleet has shrunk from 26 vessels in 
2010 to just about seven right now. This has ramifications 
throughout our coastal economies, from onshore infrastructure, 
to crew employment, to local restaurants, and to the tourism 
industry.
    The federal government declared a fishing resource disaster 
for the region several years ago and we were able to get some 
much needed disaster funds to the region. But, the need is 
still very great.
    And to make matters worse, the National Oceanic and 
Atmospheric Administration, NOAA, has decided to enforce a new 
fee for at sea monitoring on New England fishermen, as much as 
$700 per observed trip. Now, I know my colleagues in New 
England and I have long fought the imposition of this fee and 
we will continue to do so, because this is not a payment that 
the New England fishing industry can make right now, given the 
severe hits their incomes have taken over the past several 
years, and worse, this is yet another issue that affects small 
businesses much more severely. The per trip fee is the same 
regardless of the size of a fisherman's vessel. But smaller 
boats, as we all understand, bringing in a much less amount of 
fish and revenue per trip than larger ones.
    Now, I have heard from New Hampshire fishermen that this 
fee is entirely unaffordable and will be the final straw to 
force many out of the industry. In fact, one of the reasons I 
am leaving here is to go to the Appropriations Subcommittee 
where Secretary Pritzker, Commerce Secretary Pritzker, will be 
testifying so that I can ask her about what the Department is 
doing to try and address this concern that we have.
    I think we have got to do everything we can to protect the 
remaining small fishing businesses, and I am grateful that two 
of our witnesses who are going to be on the second panel are 
here today from New Hampshire and Maine. Both are deeply 
involved in the fishing community in New England and both have 
substantial experience and expertise in fisheries management.
    So, thank you, Mr. Chairman. I look forward to coming back 
to hear the second panel and very much appreciate your letting 
me go first.
    Chairman Vitter. Absolutely. Thank you, Ranking Member 
Shaheen.

 OPENING STATEMENT OF HON. DAVID VITTER, CHAIRMAN, AND A U.S. 
                     SENATOR FROM LOUISIANA

    Chairman Vitter. Good morning, everybody, and welcome again 
to an important committee hearing entitled, ``The impacts of 
Federal Fisheries Management on Small Businesses.'' Thanks to 
all of our witnesses and everyone here today.
    For those of us born and raised in Louisiana, we share an 
inherent appreciation of our state's abundant natural 
resources, certainly including fisheries. And we also share an 
obligation to encourage conservation efforts while protecting 
public access to those resources.
    When it comes to fishing in the Gulf, there needs to be a 
mutual respect between recreational anglers and commercial 
fishermen, in particular. Both anglers are an economic 
powerhouse for both Louisiana and the entire Gulf region, which 
makes protecting the public's access to these resources even 
more important.
    Responsible for creating and implementing the rules that 
govern our fisheries and the Gulf's federal waters is the 
National Marine Fisheries Service and the Gulf of Mexico 
Regional Fishery Management Council, known as NMFS and the Gulf 
Council.
    It is troubling to me that these two organizations, which 
are supposed to be dedicated to proper management of our Gulf 
fisheries, continue to chip away at the rights of recreational 
anglers, particularly with access to certain fisheries, 
including red snapper. The Gulf Council and NMFS are in place 
to protect the interests of the public, and yet continued 
attacks on the recreational sector and a failure to utilize 
proper data have led to decisions that really do exactly the 
opposite. While every region has its resources, our Gulf 
fisheries are considered some of the worst managed in the 
Nation, especially when compared to fisheries in the Northwest 
and Alaska.
    Using proper data collection techniques is paramount for 
the proper management of our Gulf fisheries, and the problems 
over at NMFS in accomplishing this were recently detailed in a 
GAO report entitled, ``Recreational Fisheries Management: The 
National Marine Fisheries Service Should Develop a 
Comprehensive Strategy to Guide its Data Collection Efforts.'' 
In this report, which I will be entering into the record, GAO 
detailed how NMFS's current data collection methods do not 
result in quality recreational fishing data, which poses 
challenges for timely managing marine recreational fisheries. 
This failure to use quality data collection methods has 
resulted in states like Louisiana and Texas creating their own 
data collection programs.
    [The GAO report follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    
    Chairman Vitter. Right now, there are over three million 
saltwater recreational anglers, including charter boats, all 
the way from Florida to Texas, and nearly 400 commercial red 
snapper fishermen. However, federal management authorities 
weigh the priorities of the few over the public, which can be 
seen in the reduction of the recreational red snapper season 
from 40 days to 10 or fewer days.
    I certainly understand the need to find a balance in timing 
for recreational and commercial harvests, but it is clear that 
federal authorities are not taking into account the effects 
their decisions have not only on anglers, but on thousands and 
thousands of small businesses that surround the recreational 
community.
    For the livelihoods of Gulf Coast anglers and the small 
businesses that rely on the red snapper fishery, updating the 
outdated collection strategies and allocation levels is an 
urgent matter. In the Gulf alone, salt and freshwater anglers 
generate $13.5 billion for the region, as well as supporting 
almost 121,000 jobs. On a wider scale, the recreational angler 
industry contributes around $115 billion annually to the 
national economy, helping keep close to 563,000 people 
employed.
    The issues surrounding these Gulf fisheries have continued 
to spur national attention. While several logical solutions 
have presented themselves, including a historic agreement by 
the Gulf states to manage some of the worst managed federal 
fisheries themselves, progress on this issue has been thwarted 
by those who demand the status quo.
    This is clearly seen in the flurry of lawsuits in recent 
years that have been aimed at any attempt to adjust allocation 
levels. Many of these efforts to diminish the voices of 
millions of Gulf anglers and related small businesses are led 
by organizations from outside the Gulf region. It is time for 
the Gulf states to take a larger role in the management of 
these important assets.
    In a time of economic uncertainty, the U.S. effort should 
be focused on data-backed solutions that support our Nation's 
small businesses and that spur job creation.
    Again, I want to thank everyone for being here today and I 
look forward to our discussion.
    Now, before I introduce our witnesses, I know Senator 
Ayotte also has some other engagements, so I am going to defer 
to Senator Ayotte.

OPENING STATEMENT OF HON. KELLY AYOTTE, A U.S. SENATOR FROM NEW 
                           HAMPSHIRE

    Senator Ayotte. Oh, I want to thank the Chairman.
    I just wanted to mention, I know on the second panel today 
we are going to have--Senator Shaheen had said Dr. Wiersma and 
also James Hayward, both who are representative and are going 
to tell us about the plight, really, of our ground fishermen in 
New Hampshire, and they are going to be a great example of they 
are trying to do everything they can, really, to make sure that 
the fishermen can continue to thrive and grow.
    And I think that Mr. Hayward is a great example, as a 
second generation fishermen, that these are family small 
businesses. And, not only are these small businesses important, 
but they are also generational. I have said before, but having 
our small fishermen--it is iconic. It is so important not only 
to have, you know, the availability of fresh fish, the work 
that they do as small businesses, but also this is something 
that I think is a great tradition that is being devastated, 
basically eliminated.
    As Senator Shaheen said, this is not right, Mr. Chairman, 
because what has happened, essentially, is that the catch share 
rules and the dramatic increases--cod is a prime example of 
this--have put our fishermen in such a difficult position where 
they cannot make a living.
    And then on top of it, to add insult to injury, is now 
these monitoring fees, which are $710 a day, is the average, 
okay. And, if you put together what a ground fisherman actually 
makes on an average day, often, what they would have to pay at 
the monitoring fees and the few fishing days that they get 
actually exceed what they would make after they pay their crew.
    And, so, you know, I think about--we worry about too big to 
fail around here. Well, the way this is set up is that it is 
going to end up with the larger fishing boats are able to 
thrive and grow, but the small businesses, the fishermen, they 
are going out of business and they are going to extinction 
unless we do something about it.
    And, I am glad you raised the issue of research and data 
and making sure that we are making these decisions based on 
good information, because I know this is an issue I know that 
Dr. Wiersma is very well versed in, but also that I have heard 
from my fishermen about the concerns they have that the 
decisions that are being made of the dramatic reductions, for 
example, in cod, which are 95 percent reductions, essentially, 
over a very short period, they are concerned because when they 
are out on the waters, they are seeing things that are 
different. We need to make sure that we are making these 
decisions based on good information, as well.
    So, I appreciate the opportunity to comment on this today 
and I certainly will want to question--be back to ask about 
these issues. But, this is something in this committee that I 
hope we can address.
    I recently--I serve on the Commerce Committee, as well, and 
I recently asked the Deputy Assistant Administrator for NOAA 
about this issue on the monitoring, because here is the thing. 
The Appropriations Committee has said in the language in the 
appropriations bill that we intended to fund the at sea 
monitoring, but NOAA is not following through on it. So, the 
Congress said, we do not want to put this fee on our fishermen 
because we do not want them to go out of business, and yet NOAA 
is doing it anyway, I believe in contravention to what we have 
said in the appropriations process. And, I got a completely 
unacceptable answer when I asked the Deputy Administrator the 
other day. I said, you cannot find this money anywhere?
    That is something I hope we can work together and push, as 
well, because they are violating the intent of Congress to pay 
for the at sea monitoring, which is the straw that will break 
the camel's back here. And, so, we have got to do something 
about this. We need good data, first of all. We need to stop 
putting the small fishermen out of business. And, certainly, 
these at sea monitoring fees should be paid for by NOAA, 
because that is what the Congress intended.
    And, I really appreciate your having this incredibly 
important hearing today.
    Chairman Vitter. Thank you, Senator Ayotte, and certainly 
count me in as we try to address all of these fisheries issues, 
certainly including that really devastating situation in the 
Northeast.
    Congressman Garret Graves and Congressman Austin Scott 
requested to be present as a first members panel, and we are 
happy to hear from them and eager to hear from them. I will 
introduce Congressman Graves, who is here. I hope Congressman 
Scott is on the way, and if he shows up, I will obviously 
introduce him in turn. And then after their presentations, I 
will introduce our second panel.
    But, Congressman Graves represents Louisiana's Sixth 
Congressional District. He sits on the House Committee on 
Transportation and Infrastructure and the Committee on Natural 
Resources. The Congressman is a lifelong resident of Baton 
Rouge, where he lives with his wife, Carissa, and three 
children. He has been a champion of recreational fishing rights 
in the House and currently has legislation pending that would 
turn control over troubled fisheries to the Gulf States.
    Congressman Graves.

STATEMENT OF HON. GARRET GRAVES, A U.S. REPRESENTATIVE FROM THE 
                       STATE OF LOUISIANA

    Representative Graves. Thank you, Mr. Chairman, Senator 
Ayotte. I appreciate the opportunity to be here today.
    The House actually just called a vote, so either 
Congressman Scott or I is making the wrong decision----
    [Laughter.]
    But nonetheless, great to be here.
    Mr. Chairman, in 2010, the White House announced the Great 
Outdoors Initiative, and they went across the United States 
engaging different outdoor recreation opportunities and 
stakeholders, trying to figure out how to get people off their 
couches and enjoy our Nation's bounty, our Nation's natural 
resources, much more so than we have seen in regard to recent 
trends. I totally support the initiative. As a former 
wilderness instructor and outdoor guide, I appreciate the fact 
that they are engaging people and trying to get them up, get 
them in the outdoors.
    Senator Ayotte, Senator Shaheen, your home State, the 
Presidentials, that traverse is on my wife and I's bucket list. 
We have not done it yet, but we will be there. I have seen 
pictures and friends and amazing things, an amazing place. But, 
if you think about what it takes to go there, people go to the 
stores, they go to the gas stations, they go to the gear shops, 
they go to the hotels, they go to the restaurants. There is so 
much involved in that.
    My wife's family is from Washington State, where I know 
Senator Cantwell represents, and Washington State, we go every 
year we go, and we go enjoy, whether it is Mount Baker that we 
have climbed and named our daughter after. We go and enjoy the 
Olympic Peninsula, the Olympics, the Cascades. We enjoy getting 
in the outdoors.
    But, I want to flip back to Louisiana. We do not have those 
mountains, and I would love to have them. If you want to send 
some, we need them. But, we would love to have those 
opportunities, but we have a different type of outdoors in 
Louisiana.
    Our state is known as a sportsman's paradise, and what that 
means to us is that we enjoy going out hunting and fishing and 
enjoying our outdoors, which are very different, very unique, 
and fantastic. It is a huge part of our culture, our economy, 
our way of life at home.
    And, what we have seen in recent years that so much 
contrasts what it was like when I was a child. When I was a 
child, we used to be able to go out and fish 365 days a year, 
and it was a family thing. We would all go out with family and 
friends and extended family. In fact, we would do it during 
holidays. That is what we do at home. And we have some of the 
best food in the Nation as a result of this incredibly 
productive ecosystem we have in Coastal Louisiana.
    But, what has happened in recent years, we went from being 
able to fish 365 days a year to, in 2014, just 9 days for red 
snapper and just two fish. In 2015, it was just 10 days. 
Amazing to go from 365 days a year and reducing it down to just 
10, or 9. Federal policy has obstructed our access, our 
opportunity to the great outdoors. Federal policy, on one hand, 
is conflicting the Great Outdoors Initiative, and it is 
preventing our ability to enjoy our outdoors the way we like to 
do it at home in Louisiana.
    Mr. Chairman, I was a natural resource manager. It is what 
I did, and I am a big proponent of sustainable management, and 
you have got to have good science. And, as we have dug into 
this issue in trying to understand it, we now understand that 
you have got rookie science. You have got science that is 
insufficient. For red snapper, for example, they are using 
stock assessments that they do not assess the fisheries in reef 
areas. The only problem is that red snapper is a reef fish. Of 
course, the stock assessments are showing that they are low 
volume, low quantity of fish. It is a flawed process.
    Magnuson-Stevens, the federal law that governs our 
fisheries, it was named after Senator Stevens, who I used to 
work for. I assure you, of the time I spent with him, this is 
not his intent, to have federal policy obstruct and impede. It 
is not his intent to allow for regional solutions, as we have 
reached in the Gulf, to be obstructed by federal policy. And it 
would not be his intent to prevent people, parents, children, 
and grandchildren, from being able to fish as federal policy is 
today, does today.
    I will say it again. We have some of the top restaurants in 
the United States. It is a huge part of our tourism economy in 
Louisiana. Foodies come to our state to eat because of the 
great, bountiful resources we have. We also have the top 
commercial seafood industry in the continental United States. 
It is a huge part of our economy. It is a huge part of our 
culture. And, we cannot screw that up, either.
    But, there was a recent article that was in the Alabama 
newspaper that, Mr. Chairman, I would like to ask if you could 
include this in the record, that lays out----
    Chairman Vitter. Without objection.
    Representative Graves [continuing]. The obstructions in 
federal policy that are preventing our ability to sustainably 
manage our fisheries and access.
    [The information of Mr. Graves follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
    
    
    Representative Graves. The states have proven that their 
management practices across the board do not result in over-
fishing. They manage species all over the place in their own 
waters, and in some cases, Mr. Chairman--the Atlantic striped 
bass, state-based management; Alaska salmon, state-based 
management; Dungeness crab on the West Coast, state-based 
management. We are asking for the same thing, not to take away 
from commercial or charter or anything else, to get better 
science to better manage the species, to provide access and 
allow my kids and grandkids to have the same opportunities that 
I did--that I had when I grew up.
    Lastly, Mr. Chairman, I just want to thank you for taking 
on topics like this. You know, since 2009--since 2009--we have 
had more small businesses lost in the United States than we 
have had created, and as I understand from NFIB. That is the 
first time in recorded history whereby that has occurred, we 
have had a net loss in small businesses. And I think in many 
cases, some of these federal decisions and management practices 
and regulations are having a profound effect, and people are 
not looking at the effect on the small businesses like our 
fishermen that have been pounded in Louisiana by Hurricane 
Katrina, Rita, Gustav, Ike, and Isaac, pounding their 
infrastructure and their livelihood and their way of life.
    And, I appreciate you doing this and I appreciate the 
opportunity to testify today.
    Chairman Vitter. Absolutely. Thank you, Congressman, and we 
hope to hear from your colleague, Congressman Scott.
    In the meantime, we will turn to our second panel and they 
can get seated as I introduce all of them, and then they will 
testify in the order of introduction.
    Pam Anderson is the Operations Manager for Captain 
Anderson's Marina in Panama City Beach, Florida. Pam has served 
as the First Vice President of the Panama City Boatman's 
Association and has served the fishing industry on the Bay 
County Chamber of Commerce's Government Affairs Committee since 
2007.
    Hughes Andry serves as the representative and Vice 
President of Fishing Sales for Sportco Marketing, a 
representative agency that acts as a subcontractor for 
manufacturers in the tackle business. In 2014, Hughes was 
appointed to the Government Affairs Committee for the American 
Sports Fishing Association.
    Brad Gentner is the President and Chief Economist of 
Gentner Consulting Group. He previously worked as an economist 
for the National Marine Fisheries Service, NMFS, and he also 
chaired the National Economic Impact Working Group.
    James Hayward is a second generation commercial fisherman. 
He owns and manages Heidi Seafood Services, the only federal 
licensed groundfish dealership at the state facility in 
Portsmouth Harbor.
    And Dr. Josh Wiersma has over 15 years' experience working 
with commercial fishermen in New England to improve their 
businesses. He is now the Manager of Northeast Fisheries at the 
Environmental Defense Fund, where he continues to work with 
fishermen to shape effective management, to improve fishery 
science and data collection, and to develop better seafood 
markets and other business conditions.
    We certainly look forward to hearing from all of you and we 
will start with Ms. Anderson.

   STATEMENT OF PAMELA W. ANDERSON, CO-OWNER AND OPERATIONS 
   MANAGER, CAPTAIN ANDERSON'S MARINA, PANAMA CITY BEACH, FL

    Ms. Anderson. Thank you, Chairman Vitter and committee 
members. I am Pam Anderson, co-owner and Operations Manager of 
Captain Anderson's Marina, Panama City, Florida, First Vice 
President of the Panama City Boatman's Association, and the 
fishery rep for our Chamber of Commerce Government Affairs 
Committee, and I am honored to be here today to represent our 
company to give testimony to this committee.
    My husband grew up in the fishing industry and we have 
managed a dinner cruise boat for 40 years and the marina and 
fishing boats since 2001, after his father passed.
    Small businesses in our industry have been unreasonably 
burdened by the extreme deadlines and mandates dictated by the 
Magnuson. Compounding the problem, the Gulf Council, under the 
direction of NOAA Fisheries, has picked winners and losers in 
the commercial industry through catch shares. Now they are 
attempting to do the same in the for hire industry. Catch 
shares are designed to reduce access and put people out of 
business.
    Angling is all about access and opportunity, opportunities 
to share memorable experiences with family and friends. It is 
often an activity that vacations are built around. It is also 
an important economic engine for our Nation and our communities 
that continue to grow.
    At Captain Anderson's Marina, next year, we will be 
celebrating our 60th anniversary in that location, supporting 
40 small businesses. We have 5 large head boats, 4 dive boats, 
27 charter boats, and most of them are owned by third- and 
fourth-generation families. In our business, we employ--in just 
our businesses only--we employ about 40 people.
    In addition to the marinas, local tackle shops and bait and 
ice suppliers, fuel suppliers, and boat repair shops all play a 
role in our industry. Johnny Patronis, co-owner with his 
brother of Captain Anderson's Restaurant, has said more than 
once, ``When I look out in the morning and see the parking lot 
full of fishermen, I know we are going to have a good night in 
the restaurant.'' If you are not fishing much, business is 
slow. That applies to a lot of the businesses around our area.
    Our anglers make vacation plans well in advance so they 
will be able to secure lodging and to request time off from 
their workplace for the June 1 start of red snapper season. 
Unfortunately, every year, it is a guessing game as to the 
season length until February, March, or April, and when we are 
given dates and take reservations, the dates may change.
    For example, in February 2014, we were told by the Council 
that our red snapper season would be 40 days, 40 to 45 days, 
and begin June 1. I called back to the office to say they could 
book red snapper trips for a 40-day season. They immediately 
put the word out and we were almost booked full for all boats, 
all trips, within a few weeks.
    At the very next Council meeting in April, we were told 
that due to a ruling on a lawsuit by EDF and commercial fishing 
groups against NOAA, our federal season was cut to 11 days. In 
May, the season was cut again to just nine days. We were forced 
to contact our customers and cancel more than 30 days of booked 
trips just a few weeks before the start of the season. The 
situation was not good for our businesses, and it was certainly 
not good for Florida's tourism. Just one of the charter boat 
owners said he lost 40 trips between his two boats at $1,000 
each.
    The catch share program that has been put in place for the 
commercial red snapper sector is now being seriously considered 
for charter boats. This management model has made sharecroppers 
out of the small commercial businesses, as you will see in the 
provided article by Ben Raines, and I do not support it for our 
business. Our family has not stayed in business since 1935 by 
hurting others to make a profit for ourselves.
    The stock recovery short will show the NOAA data that red 
snapper is growing faster than NOAA expected. The states know 
how to adapt regulations to the changing needs of their coastal 
communities and that is why we have advocated for true regional 
management of this fishery.
    The best way to ensure fair regulations and ample 
opportunities to access healthy fisheries is for NOAA to accept 
the state's more accurate harvest data and more robust 
independent fishery data as best available science; for NOAA to 
allow Gulf States to have full regional control out to 200 
miles, as was originally proposed under Amendment 39; for the 
Gulf Council to take seriously the testimony of all 
stakeholders, whether they are present in the meetings or not; 
for NOAA to direct funding to research and development of ways 
to increase fishery habitat in the Gulf, such as artificial 
reef programs and dealing more seriously with negative impacts 
of non-native species, such as lionfish. These programs would 
grow the fisheries to meet the demands of the Nation's anglers 
instead of placing undue limitations on the industry, assuming 
a limited fishery.
    Mr. Chairman, this concludes my testimony. I will be happy 
to answer any questions.
    [The prepared statement of Ms. Anderson follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    Chairman Vitter. Thank you very, very much.
    And next, we will hear from Mr. Andry. Welcome.

STATEMENT OF HUGHES ANDRY, REGIONAL MANAGER, SPORTCO MARKETING, 
                          RICHMOND, TX

    Mr. Andry. Good morning, Chairman Vitter and members of the 
committee. I want to thank you for the opportunity to testify 
before you today.
    My name is Hughes Andry and I work for a sales and 
marketing agency called Sportco Marketing. Sportco is a 
representative agency that acts as a subcontractor for 
manufacturers within the fishing tackle business. I have been 
in the tackle business since the early 1990s and have worked 
throughout various market channels within. Over the years, I 
have worked in four out of the five Gulf states selling fishing 
tackle at every level. The Gulf of Mexico is my fishery and is 
my home.
    What I would like to discuss this morning is the importance 
of planning for opportunity and how small and large fishing 
tackle businesses capitalize on opportunities by planning. It 
is no secret that effective planning is what makes the 
difference between a successful business and an unsuccessful 
one.
    Fishing tackle dealers are often balancing a very tight 
line with their open to buy dollars, available monies that they 
have to spend on fishing tackle, trying to assure that they 
bring in just enough product to cover the demand of a specific 
fishery or season, but not too much. There will almost always 
be some sort of anomaly in historical patterns, such as major 
weather events or an oil spill.
    Dealers rely on historical information to plan their 
purchases, oftentimes as far out as a year in advance. 
Manufacturers that bring in fishing tackle typically have lead 
times that range from 90 to 120 days and farther out to land 
goods in the United States. Even domestically made products, 
such as G Loomis fishing rods or Power Pro fishing line, take 
months to produce from the time that the goods are ordered to 
the time that they land on the dealers' shelves. Larger tackle 
dealers and chain stores plan their sets at the beginning of 
every spring in anticipation of the fishing season and often 
have little flexibility with making adjustments during mid-
season.
    This level of planning is designed to be able to capitalize 
on opportunity. When the opportunity is reduced or lost, so are 
sales. Fishermen and women will buy fishing tackle regardless 
if they actually go fishing if there is opportunity.
    With a 9-day recreational snapper season in 2014 and a 10-
day recreational season in 2015, there has been virtually no 
opportunity for anglers and dealers to capitalize. The current 
federal management plan makes it very difficult to near 
impossible for tackle dealers to plan and take advantage of 
opportunity. With seasons and bag limits not set until the 11th 
hour, a fishing tackle dealer can only be reactive with 
anticipating demand.
    In the years prior to the current federal mismanagement of 
Gulf red snapper, a dealer would expect a 25 to 30 percent lift 
in his business leading up to and during the spring and fall 
seasons. Some dealers were reporting as much as a 40 percent 
deficit in sales due to the current management. That is a 
fairly significant amount to any level of tackle dealer, much 
less the mom-and-pop independent dealers.
    Fortunately for these dealers, they operate in states, like 
Louisiana, that have sound and successful management plans for 
species that they are tasked with managing. Several years ago 
at a Gulf Council Gulf of Mexico Fisheries Management Council 
meeting, I spoke with Mark Mathews, the owner of Superior Bait 
and Tackle in Baton Rouge, Louisiana. Mark said that it is not 
the lack of fish that is crippling his business, it is the Gulf 
Council constantly messing up the federal red snapper season. 
He stated that the state seasons have helped him to get through 
the slow months, and without the states' red snapper seasons, 
Mark said he would hardly sell any snapper tackle at all. Mark 
and Superior Bait and Tackle is just one example of an 
abundance of coastal dealers that employ anywhere between 3 and 
30 employees each.
    Texas, Louisiana, Mississippi, Alabama, and Florida all 
have species that they manage independently from one another 
based upon the health of the fishery and the needs of the 
community. These regulations are set well in advance of the 
start of the season and are relatively stable from one year to 
the next. This creates opportunity that can be planned for and 
capitalized on.
    Federal management of our Gulf fisheries is extremely 
volatile and ultimately produces ever-changing regulations and 
decreasing recreational fishing opportunities, despite healthy 
and recovering stocks. There is seemingly no consideration 
whatsoever by NOAA Fisheries or the Council about how their 
unpredictable and last minute decision making impacts small 
recreational fishing-dependent businesses all along the coast 
that are tremendously important to coastal communities.
    It is time for Congress to step in and set a new course for 
the Gulf red snapper management. The Gulf states are 
significantly better equipped to manage this public resource in 
a way that maximizes its benefits, both recreationally and 
commercially, to the Nation. I urge Congress to act now to set 
the Gulf red snapper management on a new course and away from 
the current system that is failing small businesses throughout 
the Gulf region.
    Thank you.
    [The prepared statement of Mr. Andry follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
    
    Chairman Vitter. Thank you very much, Mr. Andry.
    Now, we will turn to Mr. Gentner. Welcome.

STATEMENT OF BRAD GENTNER, PRESIDENT, GENTNER GROUP CONSULTING, 
                        LLC, TUCSON, AZ

    Mr. Gentner. Chairman Vitter and members of the committee, 
thank you for inviting me to testify today. My name is Brad 
Gentner. I have been doing economics research and political 
consulting in fisheries for about 20 years now.
    What I would like to talk to you today about is the 
fundamental difference between commercial and recreational 
fisheries and how that difference is currently being ignored by 
federal managers.
    Commercial fishermen are small in number, typically. They 
catch as many fish as possible, bounded by their own costs. 
They try to be as efficient as possible. And, as an economist, 
we talk about that as profit. They try to operate their 
business and maximize their profits, and councils recognize 
this and they try to manage commercial fisheries with those 
goals in mind.
    Recreational anglers, on the other hand, are very 
different. They are very large in number. There are millions of 
us. And, we make our choices about how to take trips in a very 
dynamic fashion. We are driven by abundance. We are driven by 
weather on any given day. We are driven by our own personal 
economy. We are driven by macroeconomic factors. And, what that 
boils down to is because of all of those factors, we need 
opportunity. We need opportunity to get out on the water when 
it fits with our lives and when it fits with our political--our 
own personal economy.
    And, so, it is this--primarily, when it comes right down to 
the individual management, it is fisheries' abundance that 
drives effort, and it is effort that drives the spending that 
drives the livelihoods in our coastal communities. It drives 
the vibrancy and the economic resiliency of these coastal 
communities. And, that currently is being ignored and that is 
currently being squandered by the way we manage our fisheries.
    And, particularly, I want to use red snapper in the Gulf of 
Mexico as an example of this failure to recognize how 
recreational fisheries are different than commercial fisheries. 
When you have a stock with an inadequate allocation for the 
recreational sector and that stock is in a rebuilding cycle, 
you end up in what is called--I like to call the stock recovery 
drought, and Pam's in-depth testimony that she handed in goes 
into great detail about what that means.
    And, as a stock recovers, it is easier to catch fish. And, 
so, recreational anglers are attracted to abundance. That 
abundance drives higher effort. That effort generates higher 
catch per unit effort because the stock is increasing. What 
ends up happening is you end up with this downward spiral of 
fewer and fewer days in each season in the face of a recovering 
stock. We have a stock that is bigger than we have ever seen 
before in recorded history and perhaps bigger than a lot of 
scientists ever thought possible, and yet we are still stuck in 
this rebuilding schedule.
    And, so, as a recreational angler and from the recreational 
community and the recreational businesses supported by this 
fishery look at this, they are confused because they see catch 
shares being put in with the justification of enhancing or 
maximizing commercial fisheries value while their value is 
being completely ignored.
    We tried to address this by doing an allocation amendment, 
Amendment 28 in the Gulf Council, and the analysis that was 
used in the examination of that allocation was conducted by 
National Marine Fisheries Service and that analysis showed that 
recreational value is four times higher than commercial value 
for that next fish, suggesting we should move some fish.
    So, we put in all kinds of suggestions on how to move some 
fish and how to create more opportunity for recreational 
anglers and all of those were suggested until we come upon a 
recalibration attempt. The Marine Recreational Information 
Program changed the way they estimated effort, back-casted to 
that original flawed allocation that happened in the 1980s, and 
showed that the allocation should be higher for the 
recreational fishery.
    And, so, currently, that is the only allocation amendment 
that is before the Secretary of Commerce to be signed, and it 
is not even a reallocation. It is not recognizing any increase 
in value. It is simply a recalibration of data. And, yet, we 
are being sued currently to stop that, even though that 
recalibration would be nearly automatic in any other council in 
this country.
    So, what are we doing about that? Well, we are ignoring 
this value. We are squandering this value. We are not 
maximizing value in these fisheries and we are harming local 
communities and local livelihoods.
    Reallocation only addresses part of this problem. It is a 
symptom of a larger issue of not focusing on the correct thing 
in our management for recreational fisheries. We need a 
completely new paradigm to focus--to look at how to manage 
recreational fisheries. And, it is only new at the federal 
level. The states already manage for opportunity. They manage 
for opportunity in freshwater. They manage for opportunity in 
saltwater, and they do a very good job of that. They treat 
their recreational anglers like clients and that is something 
we need to do at the federal level, as well.
    I thank you for my opportunity to comment.
    [The prepared statement of Mr. Gentner follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
    
    Chairman Vitter. Thank you very much.
    And now, we will turn to Mr. Hayward. Welcome.

STATEMENT OF JAMES HAYWARD, OWNER, F/V HEIDI AND ELISABETH AND 
HEIDI AND ELISABETH LLC, AND PRESIDENT, XI NORTHEAST FISHERIES 
                  SECTOR, INC., PORTSMOUTH, NH

    Mr. Hayward. Thank you, Mr. Chairman, Ranking Member 
Shaheen, and members of the committee. My name is James 
Hayward, a lifelong second-generation commercial fisherman.
    I am primarily a day boat gillnet fisherman operating out 
of the Gulf of Maine. I currently own two fishing boats located 
in Portsmouth Harbor, New Hampshire, as well as use four 
fishing permits on those boats. I own and manage Heidi Seafood 
Services, the only licensed federal groundfish dealer at the 
state facility in Portsmouth Harbor. I am President of the 
community's groundfish sector, Northeast Fisheries Sector XI. I 
am also Treasurer of the New Hampshire Community Seafood, the 
local community-supported fishery.
    I want to start by saying in 2010, the fleet transitioned 
over into a catch share program. At that time, New Hampshire's 
roster of active boats comprised of 26 vessels. Many new 
requirements were put into place at that time, for instance, an 
at sea monitoring program as well as a dockside monitor 
program, and fishing continued for a couple of years and 
vessels were able to survive.
    And in early 2012, a NOAA trawl survey indicated that cod 
stocks were not as healthy as anticipated and the cuts to the 
ACLs, annual catch limits, began. Since 2012, ACLs on cod have 
been reduced by a total of 95 percent. For New Hampshire, cod 
is the lifeblood for our fleet. Not only did cod represent the 
majority of the fishermen's quota in the sector, but also its 
state permit banks.
    Currently, our fleet has been reduced to seven vessels. Our 
sector is operating on a $60,000 budget and is predicting a 
$35,000 loss. Our state's offloading infrastructure is on the 
verge of bankruptcy. Permit holders that invested in additional 
permitting to secure their businesses are left with deflated 
permits barely worth pennies on the dollar.
    As if that was not damaging enough, beginning in March, 
NOAA Fisheries has passed the at sea monitoring expense on to 
the fishing fleet, introducing an industry-funded at sea 
monitoring program at the cost of nearly $4 million annually. 
Although difficult to predict the damages it will impose, many 
owners are calling this the final nail in the coffin for the 
fleet.
    In my honest opinion, much of this hardship could have been 
avoided. Reducing total allowable catches greater than 20 
percent in any one year on any one species only creates 
hardship. We are clearly at the infant stages of understanding 
fisheries science, models, and how to effectively use them to 
manage a large multi-stock ecosystem.
    The repairs that need to be made to fix this industry are 
going to clearly take many years to come, but in order to 
prepare for the future, some steps need to be taken immediately 
to preserve the fishing culturing in the small ports of the 
region. I would suggest the following.
    Congress should direct NOAA Fisheries to continue to fund 
the at sea monitoring program until the time where the fleet is 
viable enough to assume the costs.
    They should also integrate new sources of fisheries 
dependent information, like cost per unit effort, and 
environmental factors, especially climate change factors.
    Congress should make additional funds available for 
communities most affected and direct those funds to be 
allocated to state permit banks to provide an additional level 
of protection in investment in a sustainable--of the at-risk 
community sectors.
    It is in my opinion that those areas are the most 
important, that these areas of fisheries management were 
improved through actions taken by Congress and NOAA Fisheries 
could grow over time and this catch share program become 
sustainable and provide new opportunities and better jobs for 
the future.
    Thank you for the opportunity to testify before you today.
    [The prepared statement of Mr. Hayward follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
        
    Chairman Vitter. Great. Thank you very much.
    And next, we will hear from Dr. Joshua Wiersma. Doctor, 
welcome.

  STATEMENT OF JOSHUA B. WIERSMA, Ph.D., NORTHEAST FISHERIES 
        MANAGER, ENVIRONMENTAL DEFENSE FUND, BOSTON, MA

    Mr. Wiersma. Thank you. Chairman Vitter, Ranking Member 
Shaheen, and distinguished members of the committee, thank you 
for this opportunity to testify on the impacts of federal 
fisheries management on small businesses.
    My name is Dr. Josh Wiersma. In 2006, I began my career 
working at the Massachusetts Fishermen's Partnership in 
Gloucester as an economist and research assistant, finishing up 
my Ph.D., looking at the value of collaborative research to New 
England fishermen. In 2008, I began working at the Northeast 
Seafood Coalition as a New Sector Policy Analyst, where I 
became a lead architect for the development and eventual 
implementation of the new sector system in 2010.
    I went on to manage New Hampshire's two groundfishing 
sectors over the next five years, and while Sector Manager I 
also co-founded and was the Executive Director of New Hampshire 
Community Seafood, our small community-supported fishery 
program. I am now the Manager of Northeast Fisheries in 
Environmental Defense Fund, where I continue to work with 
fishermen, the government, and other stakeholders to shape 
effective fisheries management.
    Sector management has helped the industry deal with strict 
quotas, but as you know, fishermen are still struggling. Small 
businesses need stability to thrive, and for fishermen, 
stability is driven from good science and stable management.
    Currently, fisheries science and management is plagued by 
uncertainty in stock assessments, non-transparent quota leasing 
markets, and outdated monitoring and reporting technology, and 
low levels of fleet accountability and enforcement. The result 
has been a severe economic depression for both the individuals 
and the waterfront communities reliant on New England 
groundfish.
    The time is now to address these issues, because despite 
the obstacles, there is hope for a better, more stable and 
sustainable fishery. Regulators could make improvements in 
monitoring and accountability, stock assessment methodology, 
collaborative research, the quota leasing and permit markets, 
and overall electronic and integrated infrastructure.
    But first, the agency must improve monitoring, reporting, 
and accountability, because rebuilding New England key 
groundfish stocks, especially cod, has been unsuccessful, due 
in part to the high levels of uncertainty that plague 
assessment models, and part of the answer is to fully account 
for fishing activities and to adopt modern technologies, like 
electronic monitoring, because if everyone knows that everyone 
else is playing by the same set of rules, the entire business 
landscape becomes more efficient and less uncertain, a good 
characteristic for any business.
    The second, stock assessments must be more accurate. 
Developing more accurate stock assessments and catch limits 
requires better data streams continually feeding the stock 
assessment process, and it requires that climate change and 
other environmental variables that significantly affect fish 
stocks are taken into account. This is another area where EM 
and electronic reporting could be useful, as the data could be 
used to send real-time ecosystem, biological, and effort 
information from fishing boats to science to improve current 
assessment models and also to develop more refined and 
standardized Catch Per Unit Effort models based on fishing 
effort to ground traditional independent trawl surveys. The 
more accurate models and estimates would provide more stable 
quotas while rebuilding important stocks to the benefit of all 
small fishing businesses, restaurants, and others.
    Third, collaborative research should be expanded and better 
integrated into decision making. The level of investment in 
collaborative research has been both inadequate and 
inconsistent. Collaborative research gives fishermen a direct 
voice in the science and management process and an 
understanding of how and why the data is used as fisheries 
managers. And through broad co-research projects and through 
providing more granular, more frequent reporting at sea or 
field testing new technology, fishermen can directly contribute 
to the science and management. In fact, if the whole fleet used 
integrated and new technologies like electronic monitoring, 
electronic reporting, it could effectively turn every boat into 
a cooperative research vessel, similar to the study fleet that 
has been implemented through NOAA's Fishery Science Center.
    Fourth, we badly need more transparent quota leasing and 
permit markets. Currently, data confidentiality restrictions 
restrict information about quota leasing, leading to high price 
volatility and the inability to effectively make a business 
plan. The opaqueness of both the quota lease markets and permit 
sales market restricts access to private capital through the 
high level of risk financial institutions bear because of their 
inability to value fishing assets. As a result, fishermen have 
a very difficult time using their fishing permits as collateral 
when applying for a loan to improve their business and often 
take second or third mortgages on their homes or sacrifice 
important benefits like health insurance.
    Finally, data reporting, collection, and storage issues are 
stymieing innovation in the fisheries. NOAA Fisheries has 
prioritized the development of new systems of integrated EM/ER 
in their fisheries modernization plan, but they continue to 
push back the time of full implementation and will not commit 
to some type of final transition. Currently, only 20 percent of 
the fleet reports electronically, which is unfortunate because 
the information collected at sea through a modernized system if 
integrated reporting and monitoring would have broad benefits 
to both the fishery and the fleet. This type of catch inventory 
would be extremely beneficial to local restaurants, stores, and 
fish markets trying to plan, sell, and promote local seafood.
    In conclusion, on behalf of all fisheries-dependent small 
businesses, I thank you for holding today's hearing and for the 
opportunity to testify.
    [The prepared statement of Mr. Wiersma follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
    
    Chairman Vitter. Thank you very much. Thanks to all of you. 
Your testimony was really enlightening and really excellent.
    As we continue the conversation, let me first make a few 
points about the Gulf side of things, which is my obvious 
focus, three points in particular.
    Number one, no one involved in the effort to improve the 
situation in the Gulf, certainly including me, wants to move 
away from sound fisheries management based on real science. We 
are absolutely committed to that. Nobody wants to move away 
from that and end up over-fishing any stock and ruining the 
situation for everybody, which it would do. We are absolutely 
committed to sound science and sound management. We just do not 
think that is happening now on the federal side and know it can 
be done better.
    Number two, I certainly appreciate and value the impact, 
economic and otherwise, of the commercial sector, and nobody 
wants to harm that or shove that out of the picture. And, in 
fact, several of our proposals to improve the situation in the 
Gulf have been made with the built-in caveat that if this 
lessens the catch on the commercial sector by one fish, it will 
be negated. We will go back to the old way. So, we have offered 
sort of an absolute hold harmless that the commercial sector 
will not be hurt by a single fish because we do not want to 
hurt that sector and we recognize their importance.
    And, number three, let me just point out with regard to our 
proposal specifically, moving state management from three 
nautical miles to nine nautical miles, in the Gulf, that is 
already the case off Texas and off Florida. So, this is not 
some radical idea in the Gulf. In the Gulf, a whole bunch of 
the Gulf is under that rule already, specifically off Texas and 
off Florida.
    So, with all those issues in mind, Mr. Gentner, I wanted to 
ask you, do you consider the science and the data in the Gulf 
on issues like red snapper better on the federal side or on the 
state side?
    Mr. Gentner. Thank you, Senator. Because they have not been 
sort of in charge of red snapper, let us say, I think that the 
states are sort of playing catch-up at the moment. But, I think 
their systems for collecting recreational data have made leaps 
and bounds recently with--I think every state in the Gulf has 
an electronic, an automatic electronic reporting system for 
private recreational anglers either in the works or on the 
ground, and they have instituted such things as special license 
check-offs for red snapper fishing so that they can have a 
dedicated survey frame for red snapper fishermen to make survey 
efforts much more efficient and much--be able to make catch 
estimates much more quickly than the current federal effort.
    Chairman Vitter. All of the Gulf states, as I think you 
know, Mr. Gentner, have come together and agreed on a 
management plan that would apply, including if their 
jurisdiction were extended to nine miles. This strikes me as 
very significant, that all the states have agreed. I mean, 
obviously, those states, those governors, those offices deal 
with and have to acknowledge and represent all the sectors, 
commercial, charter, recreational. How would you describe the 
significance of their coming to that agreement in terms of a 
plan, Mr. Gentner?
    Mr. Gentner. I think it is very significant. I think any 
time you have sort of entities with their own sovereignty that 
can come together and agree to managing something jointly, I 
think that is huge. And I think that is mainly driven by the 
states' recognition of the value of recreational fishing. They 
understand how this works. They understand that opportunity 
drives economic value. And they benefit directly from license 
sales and excise taxes.
    And if they are not selling tackle, those states are not 
filling their management budgets. They are not able to provide 
the enforcement, the enforcement that enforces commercial 
regulations as well as recreational regulations. They are not 
able to provide that infrastructure that supports both 
commercial and recreational fishing through recreational excise 
taxes and license sales.
    And, so, I think the recognition of the sort of economics 
that are driven by that opportunity drives them to want to be 
able to participate and collaborate on this management.
    Chairman Vitter. Right. Let me ask all of the Gulf 
witnesses, is there any evidence right now with regard to 
fisheries that are managed at the state level of mismanagement, 
of bad data, of over-fishing? Sure, Mr. Andry.
    Mr. Andry. Thank you, Mr. Chairman. No, I think that the 
states independently have done a very good job of managing the 
individual species that they have been tasked to manage. In 
many cases, it is the same fish, the same fisheries, but each 
state has their own individual needs. And for the states to be 
able to recognize that and manage it, at this point in time, 
no, there is no significant over-fishing that is being 
documented or occurring on the species that the states are 
managing.
    Chairman Vitter. Okay. Mr. Gentner.
    Mr. Gentner. I think we have an excellent example in the 
State of Florida with snook management of crises being treated 
proactively. I think we had a very severe freeze a couple of 
years ago that wiped--almost wiped out the spawning capability 
of the snook population, and they were able to get in front of 
that and decide that we are not going to have a snook season 
until this fishery is able to be fished again. And the 
recreational anglers agreed with that, thought it was a 
wonderful idea, and they were able to get in front of and stop 
this crisis from happening.
    So, I think instead of failure, we see the opposite of 
failure. We see environmental conditions driving them to be 
proactive and keep opportunity alive.
    Chairman Vitter. Ms. Anderson.
    Ms. Anderson. Yes, sir. Thank you, Chairman Vitter. I see 
the states being a very positive thing for them to have control 
because of the flexibility. In state management, they can go in 
and propose something that they know needs to happen in order 
to not only protect the industry, but also the fishery, and 
they can have that done within two meetings. If it were NOAA, 
it would take two years, possibly, to go through all the hoops 
that they have to go through to do the same thing.
    So, flexibility is very important because nature changes. 
There may be an issue next year. Maybe it will not be there 
next year. But, it is important that they have that 
flexibility. They also have flexibility in that Northwest 
Florida has needs that are different from Central Florida, that 
has needs that are separate from South Florida or on the East 
Coast. So, they have the flexibility of making those changes, 
where if it is all one-size-fits-all, it is not the same.
    Chairman Vitter. All right. Okay. Thank you very much.
    Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman, and I would like 
to thank all of the witnesses who are here today. While there 
are different issues that we face in New England than you all 
have in the Gulf, I think our goal is the same and that is to 
see a well-managed fishing stock and a robust industry for 
fishing in the United States, whether it is commercial or for 
private fishermen.
    I want to particularly thank Jamie Hayward and Josh Wiersma 
for being here. They, as you heard in Senator Vitter's 
introduction, they have been involved in all aspects of the 
fishing industry and New England and so you can bring that 
experience and understanding to today's testimony.
    And, I want to start with you, Mr. Hayward, because you 
talked about the range of fishery management decisions over the 
past several years that have really effectively decimated New 
Hampshire's fishing industry. Can you talk more about why small 
fishermen are affected more than some of the larger fishing 
operations and why it is a particular issue for New Hampshire 
and for some other states that have our kind of fishing.
    Mr. Hayward. Certainly. It boils down to the smaller 
vessels are not out there. Like you said earlier, the cost of 
the monitoring per day is the same on each vessel, but the 
amount of dollars that a vessel is targeting certainly is not 
the same between a small vessel and a larger vessel. So, in a 
lot of cases, when the smaller guy is paying a larger 
percentage of his income for the monitoring program, it is 
basically just--you know, it has to do with how far from shore 
you go. It has to do with the amount of horsepower you have in 
your boat, your--pretty much your fishing capacity, what your 
vessel and your crew are capable of.
    Senator Shaheen. And you all spoke to the need to move 
towards an electronic monitoring system, and I think that is an 
issue in the Gulf, as well. I wonder, Dr. Wiersma, if you could 
talk more about what NOAA needs to do and how we in Congress 
could urge that more rapid movement to that electronic 
monitoring system.
    Mr. Wiersma. Sure. Thank you for the question, Senator 
Shaheen. I think from my experience working with the agency, it 
is a matter of really taking strong leadership on this position 
and stop delaying the implementation time frame. You know, 
there have been pilot projects that have been ongoing since 
early 2009, yielding enough data that at this critical time, 
where the fleet needs these options for them to be able to 
understand what their best business plan is moving forward, you 
know, the option to have electronic monitoring, electronic 
reporting is critical.
    And, so, we were on track to approve that actually this 
year, and again, the agency seemed to get cold feet and decided 
that they just did not have enough information yet, and so 
there will be that option available to a limited amount of 
boats next year. I believe there are 20 boats that are going to 
be participating under an exempted fisheries permit. But, that 
is not the same and it does not provide the broad opportunity 
for the entire fleet.
    Senator Shaheen. So, as I have the opportunity to question 
Secretary Pritzker about this issue, what would you all like 
for me to say to her about what the impact of the Department of 
Commerce and NOAA's delay in moving to this system means for 
people on the ground who are trying to keep their businesses 
alive? And, I would ask either or both of you.
    Mr. Hayward. I will answer saying that time is crucial and 
the road we are heading down now is not a good one. It is 
pretty much the end is near, and if things are not changed 
soon, at least to some extent, that the fleet is going to look 
a lot different in 36 months, I can assure you of that.
    Senator Shaheen. Will we still have any fishing in New 
Hampshire if we do not see some changes in NOAA's decision in 
some of these areas?
    Mr. Hayward. What will happen is the infrastructure will be 
gone, and when that is gone, then the boats will leave. The 
ones that want to remain, they will be forced out because they 
will have no place to offload or even markets to sell.
    Senator Shaheen. Dr. Wiersma, do you want to add anything 
to that?
    Mr. Wiersma. Yeah, I think--and Jamie really hit the nail 
on the head. It is a matter of presenting these options in a 
timely manner to the fleet, you know. And, I think, I like to 
describe it as the fleet has kind of been in a state of limbo 
for the last year with the uncertainty about both the switch to 
the at sea monitoring program, but also about, really, a lack 
of opportunity for them to modernize their boats to be able to 
adapt new technologies, you know, be able to participate 
directly in the science through those programs. You know, I 
think it really comes down to giving fishermen these 
opportunities and doing so in a timely manner with strong 
leadership.
    Senator Shaheen. Thank you. Thank you, Mr. Chairman.
    Chairman Vitter. Thank you.
    Senator Ayotte.
    Senator Ayotte. Thank you, and I certainly share Senator 
Shaheen's concerns and am so glad that this hearing is 
happening today. I appreciate it.
    And, I wanted to ask you, Mr. Hayward, you are in our 
position. What are the most immediate steps that we need to 
take to ensure that the fishermen do not go out of business? 
So, your answer to Senator Shaheen is very, I mean, compelling 
and dire, and we do not want you to go out of business. We 
appreciate what you do. So, what are the things you feel the 
most urgency for that you want us to do?
    Mr. Hayward. Well, the most critical thing at this point 
right now is the ability to use cod to harvest other fish. With 
our cod allocations being reduced by 95 percent in a 36-month 
period, it has become nearly impossible to operate a profitable 
business. So, I mean, yes, that needs to be corrected and that 
probably needs to be corrected through a science procedure 
and----
    Senator Ayotte. But, it has got to happen pretty quickly 
here, does it not?
    Mr. Hayward. It certainly does. I mean, yeah. These vessels 
are not going to hold on a great deal longer. I mean, first and 
foremost, yes, the at sea monitoring funding issue----
    Senator Ayotte. We have got to get that immediately. You 
cannot afford it, right, so we have got to----
    Mr. Hayward. Basically, no. The small communities cannot 
afford it. I do not even know that the bigger vessels can 
afford it. I mean, it might have--the damages that it is going 
to cause to infrastructure are the ones that concern me the 
most, is if the volumes of fish reduce so much that the 
shoreside infrastructure cannot stay open, they cannot do 
anything, then once they are gone, then it is not going to 
matter how much fish is left in the ocean because nobody is 
going to have any place to put it. Nobody is going to have a 
way to get it off their boat. No one is going to have the tools 
that they need to operate a fishing business.
    Senator Ayotte. So, I mean, I certainly understand and 
appreciate the idea of moving to technology for this, but we 
have got an issue right before us, right, that you need to be--
the at sea monitoring costs have to be covered now or people 
will be out of business. And, we can change the monitoring 
system any way we want, but if you are out of business, then we 
no longer have our fishermen.
    And, this is an issue that I know Senator Shaheen and 
myself, others in New England have written on. The language in 
the Appropriations Committee, I think, is clear, that NOAA is 
not following, that they should be funding this at sea 
monitoring, and I am sure we will continue to put that language 
in and clarify and we have got--but, I think we have got to do 
whatever we can to get that funded right now.
    What other issues do you want to make sure that we address, 
the immediate, obviously, burning fire, but what is your view 
on the research and the information in terms of the science?
    Mr. Hayward. I think that the models need to be adjusted, 
to be honest with you, and I think that more tools need to be 
implemented into stock assessments, like even at sea monitoring 
data, even, you know, Catch Per Unit Effort data. Things like 
this need to be included. I mean, the information that is 
acquired by the commercial fleet needs to have a role in the 
stock assessment, in the science models. One way or another, it 
has to get in there, because----
    Senator Ayotte. Because you are on the waters----
    Mr. Hayward. The commercial----
    Senator Ayotte [continuing]. And it is a pretty important 
observation you are making, right?
    Mr. Hayward. The commercial fleet is not comfortable with 
the ability for scientists to harvest fish.
    Senator Ayotte. Now, I have heard that. I have heard that--
--
    Mr. Hayward. Or count fish, for that matter.
    Senator Ayotte. Yeah, because you are out there on the 
waters and you are seeing different information that you feel 
like is not taken into account.
    Mr. Hayward. In some cases, yes.
    Senator Ayotte. Yes. Great.
    Dr. Wiersma, I know before your current position, you know, 
you have been very active also with the New Hampshire 
Cooperative, and I had the chance, as you know, to come down 
and visit what is happening. So, I see our fishermen also 
trying to take on new creative ways, obviously, to market fish 
and different species. But, as I look at sort of the emergency 
before us, would you agree we have got to address the emergency 
and then go forward on if we are going to look at new 
technologies or development of sales of new species and things. 
So, I wanted to get your observation on that.
    Mr. Wiersma. I appreciate the question, Senator Ayotte. I 
think Jamie made some really compelling arguments, and it does 
come down to providing fishermen the opportunities to be able 
to stay in business. You know, since I have transitioned to EDF 
last year, I was actually very proud to be able to work hard--
as you know, Congress has appropriated $3 million for 
electronic monitoring, which is immediately available for 
fishermen if they want to use that technology this year, but it 
is really the agency who has not approved it for use. So, we 
are stuck in a position where there is some short-term relief 
in that way, yet it is not broadly available to the entire 
industry.
    You know, there has to be an understanding of a path 
forward that can get us out of this mess, and addressing these 
short-term needs really is critical now so that we can look at 
building more information into the stock assessment models, 
trying to provide that level of stability moving forward, 
which, as Jamie says, has to depend on more levels and 
increased amounts of data, new streams of data from fishermen, 
observations directly into science, addressing climate change 
and other factors in those models which currently is not taken 
into account and is critical to look at. So, I think that those 
are probably the largest immediate concerns.
    Senator Ayotte. Great. Thank you. I want to thank both of 
you for being here, and also, I appreciated the testimony of 
the other panelists, too, who I know are facing challenges, as 
well. We all want to ensure that we continue to have the 
fishermen thriving and being able to really hope there is a 
third generation, really, for you, Mr. Hayward, and that is 
what we care about. So, I appreciate you being here.
    Chairman Vitter. Great. We have some additional time, so I 
am going to invite another round and participate in that 
myself.
    You know, in the Gulf situation as it relates to red 
snapper and other things, another thing I am really concerned 
about is the extent to which we are really taking a public 
resource and privatizing it and putting it in the hands of a 
very select number of people as the public, particularly 
recreational fishermen, can participate and enjoy the resource 
less.
    I mean, for red snapper, there are right now in the Gulf 
418 what are called IFQs, Individual Fishing Quotas, sort of 
permits, essentially, on the commercial side. That is a 
significant decrease from five years ago. So, you need one of 
these to participate on the commercial side. They are not--new 
ones are not created very often at all. They can be passed down 
generation to generation.
    And, by the way, the way this is split up, 49 percent of 
the shares are held by Florida residents, 30 percent by Texas 
residents, 18 percent only by Louisiana and Mississippi and 
Alabama combined, and two percent by non-Gulf state residents. 
About 19 people in Louisiana hold a commercial red snapper IFQ, 
even though 40 percent of the red snapper biomass is off the 
Louisiana coast. So, that is a whole another level of concern I 
have, of really privatizing a public resource.
    Do any of you, particularly the Gulf witnesses, have any 
comments or thoughts about that?
    Ms. Anderson. We have made it clear as we testified in Gulf 
Council meetings that we do not approve--we do not believe that 
the catch share system is the proper system to apply--be 
applied most definitely to the recreational industry. Whether 
you are charter for hire, head boats, or private anglers, we 
are all recreational anglers.
    And, the--it surprises me that we have had to go this far 
to--in discussions knowing that, I believe, that Congress' 
intent with this law was to protect fisheries and the fishing 
industry, and yet NOAA's goal of the way they are going to do 
that is by limiting the number of opportunities people have to 
fish in the recreational sector and limiting the number of 
people who have shares in the commercial fishery, and I do not 
think that was the intent of Congress to do that, to eliminate 
jobs and businesses. So, I believe that it is very important 
that we look at that and question that.
    Chairman Vitter. Thank you, Ms. Anderson, and I think your 
comment is particularly relevant and noteworthy given that 
because of you all's charter business, you would really have 
the opportunity to benefit from that system and from things 
going in that direction by essentially getting that sort of 
elevated status, correct, but you are still against moving in 
that direction.
    Ms. Anderson. Yes and no. The Anderson family would be one 
of the winners. We are picking winners and losers in the catch 
share industry, catch share program. So, the Anderson family 
would be one of the winners because we do--we have been in the 
industry for a long number of years.
    But, then again, we have a marina that has 27 charter boats 
and 5 head boats and 4 dive boats. So, a lot of those would be 
put out of business. But, we need all of those boats operating 
on a regular basis in order to pay their rent and to purchase 
fuel, because that is how the marina gains its income. Without 
the marina, we cannot have the boats there.
    Chairman Vitter. Right.
    Ms. Anderson. So, it all works together and it is very 
important. And sightseeing, sightseeing cruises that we have, 
they are dependent on families coming down for fishing, also. 
We all play off of each other.
    Chairman Vitter. Right. Thank you.
    Senator Shaheen, do you have anything else?
    Senator Shaheen. I do, actually, Mr. Chairman.
    I wanted to go back, Josh, to two of the issues that you 
raised in your testimony and try and better understand how you 
envision it working. The first was around collaborative 
research. You talked about what NOAA could do that would be 
more helpful to the industry, and one of the things you 
mentioned was more collaborative research. Give me more details 
about how you envision that working.
    Mr. Wiersma. Sure. Thank you for that, Senator, excuse me, 
for the question, Senator Shaheen. So, collaborative research 
is actually near and dear to my heart. I completed my Ph.D. 
looking at the value of collaborative research for New England 
fishermen, and one of the things that I found during my 
research was that not only does collaborative research produce 
this wealth of data that currently is not available for 
science, but it also benefits the fleet because they gain the 
knowledge and information and understanding about what science 
is, what its objectives are, and how they can add to that 
process.
    And, so, traditionally, collaborative research is kind of 
funded almost ad hoc, right. Ten years ago was probably the 
heyday, and a lot of times, it comes with different types of 
disaster declarations or other types of immediate short-term 
thinking which leads to very short-term research projects, like 
two-year projects, and then the data just does not get used. It 
gets put on the shelf. The industry had for a time a very 
robust industry-based trawl survey that was running side-by-
side with the government trawl survey. That was abandoned about 
five years ago. The State of Massachusetts is just thinking 
about how they can get that research project up and running 
again.
    And, it is really because of the demand from the industry 
to say, you know, listen, we want fisheries-dependent 
information used in the stock assessment process. We think we 
have a lot to contribute for that, or those purposes. And, 
prioritizing collaborative research, you know, is a priority of 
the Magnuson-Stevens Act. It should be a priority of NOAA 
Fisheries. And it should be implemented in a way that is formal 
and has a process for that data that is collected to then be 
flowed into management.
    Senator Shaheen. So, what you are suggesting is that we 
really need some funding that will allow NOAA to work with the 
industry in putting together the research in particular areas 
where we need to get more information about what is happening 
and to be very directive about that.
    Mr. Wiersma. That is true, and also to allow the industry 
to prioritize what those research agendas are, and I think that 
is also part of the problem, is that, typically, it has been 
this top-down driven process where research priorities come 
from the top, and they might not necessarily coincide with what 
the fishing industry feels like are the research priorities 
they would like to address.
    Senator Shaheen. So, give me an example.
    Mr. Wiersma. So, as an example, you know, the government 
typically has focused a lot on conservation gear research, and 
while some of those efforts have been very successful, like how 
to accept radar trawl and others, fishermen want more 
collaborative research to do stock assessment science. They 
would like to have these side-by-side research trawl vessels 
going along to ground truth the independent trawl surveys.
    And, just as another example, I think there are two levels. 
There is kind of a lower level, where you are not necessarily 
having a full-blown research project, but fishermen can also 
act as co-manage cooperative research participants by agreeing 
to have more frequent reporting at sea, to take new 
technologies like electronic monitoring, electronic reporting, 
to integrate haul by haul information that gives you that level 
of temporal and spatial information that can really do 
interesting things, like develop robust Catch Per Unit Effort 
index models to really understand where the footprint is of 
these species, especially in an environment now that is rapidly 
changing, and from year to year, you know, I think it is clear 
in the Northeast that climate change is having a significant 
impact on the movement of these stocks. We need all eyes and 
ears out on the water as we can at this point.
    Senator Shaheen. And, talk a little bit more, if you would, 
about what you were suggesting with more transparent quota 
leasing.
    Mr. Wiersma. Sure. Yeah. So, as a Sector Manager, that was 
really one of the big issues that I faced, is this system of 
tradable fishing rights. While it produces efficiency in the 
system, it can also lead to inefficiencies if that level of 
market data is not available to everyone.
    I will give you an example. Imagine trying to sell your 
house in an environment where you do not know any of the prices 
of the houses that sold around you, but the buyer that comes to 
buy your house does and he offers you anything that he wants 
and you are likely to accept that because you do not have any 
other information to know what those comparable sales are. That 
is generally how it kind of works in the permit and the quota 
trading market through disparate e-mails, different types of 
communications.
    Senator Shaheen. So, who is actually pushing to keep the 
leasing system opaque?
    Mr. Wiersma. So, I think there are a combination factors 
that--you know, it starts from very strict data confidentiality 
rules. You know, the government has certainly been----
    Senator Shaheen. Right.
    Mr. Wiersma [continuing]. Slow in trying to address those 
and pushing for their role in trying to develop more 
transparent markets. I think, obviously, there are certain 
players in the industry who are benefiting from 
disproportionate amounts of asymmetrical information.
    Senator Shaheen. Okay. Can I ask one more question?
    Chairman Vitter. Sure.
    Senator Shaheen. The other thing that I just wanted to get 
you to comment on, because it is good news, one of the few 
bright spots we have got in New Hampshire and Northern New 
England with respect to fishing, and Senator Ayotte mentioned 
it, and that is the business model that you are both involved 
in in the Community Seafood Initiative. So, I wonder if you 
could talk a little bit about how that works and the positive 
aspects of that that you have seen, and Jamie, you are the 
Treasurer, and Josh, you are one of the co-founders, so I do 
not know which one of you wants to address that.
    Mr. Wiersma. Sure. I will start first. So, as you 
mentioned, you know, that has certainly been a highlight of my 
experience working in the industry, and really just because of 
the level of innovation and collaboration that it took to start 
it. You know, Jamie was there from the beginning, helping me 
create it.
    It is a cooperative of New Hampshire fishermen, but it is 
also a cooperative of the New Hampshire public, where we allow 
the local New Hampshire public to become shareholders of the 
organization. So, not only do they pick up a share of fish 
directly off the boat, so they are getting the freshest, best 
fish that is available, they can also invest in the 
organization as a stockholder and they have a seat on our Board 
of Directors as a consumer stockholder. They collectively make 
decisions with our fishermen about how we are going to develop 
our business for the following year, what species we would like 
to offer. And, it has been very beneficial that way.
    And, so, in over three years now, we have 18 different 
drop-off locations throughout the state. We are working 
directly with 15 different restaurants who are sourcing 
groundfish directly from New Hampshire boats. It has been 
extremely successful in highlighting our traditional fishing 
community and giving them a voice, I think, that maybe they did 
not have before.
    Senator Shaheen. Thank you.
    Anything you want to add, Jamie?
    Mr. Hayward. Well, from the fishermen's standpoint, it has 
been enjoyable to watch the local consumer enjoy the product 
that the fishermen harvest and have the availability that was 
not always there in the past. And, it has been a great pleasure 
to make that availability possible.
    Senator Shaheen. Well, thank you all very much, and it is 
nice that we have at least one positive--we can end on a 
positive note.
    And, I want to thank all of you. It is clear that we have a 
lot of work to do here to help address some of the concerns 
that exist within the industry, and I certainly intend to work 
with this committee, I know Senator Vitter does, as well, and 
other Senate committees to see if we can address some of these 
issues in a way that is more positive.
    Thank you, Mr. Chairman.
    Chairman Vitter. Thank you very much, and thanks to all of 
you. This was a great discussion because of your background and 
experience in your testimony. So, thank you.
    We obviously have two different situations in the Gulf and 
New England. However, the common thread is an enormous impact 
of fisheries on small businesses, both on the commercial side 
and on small businesses related to that and the recreational 
side. So, it is a big, big small business issue.
    But, I also think this discussion underscores that 
different regions and different fisheries have very different 
challenges, and so the best solution, in my opinion, is not 
some cookie cutter federal approach, which is another reason we 
would like more state involvement in the Gulf.
    So, thank you all very much and we will certainly be 
following up with legislation and other proposals.
    And with that, the hearing is adjourned.
    [Whereupon, at 11:25 a.m., the committee was adjourned.]

                      APPENDIX MATERIAL SUBMITTED
                      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                      
                      
                      


                                  <all>
</pre></body></html>
